 REVIEW OF THE SMALL BUSINESS
ADMINISTRATION’S PROTECTION OF
 SENSITIVE AGENCY INFORMATION

         Report Number: 07-13
      Date Issued: February 9, 2007
           U.S. Small Business Administration
                                                                     Memorandum
           Office of Inspector General

    To:    Christine Liu                                                                        Date:    February 9, 2007
           Chief Information Officer
           Chief Privacy Officer

  From:    /S/ Original Signed
           Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Advisory Memorandum Report on SBA’s Protection of Sensitive Agency Information

           Following numerous incidents involving the compromise or loss of sensitive
           personal information, on June 23, 2006, the Office of Management and Budget
           (OMB) issued Memorandum 06-16 Protection of Sensitive Agency Information, 1
           requiring federal agencies to take certain actions to protect sensitive information
           entrusted to them. These actions, which were to be implemented by August 7,
           2006, included: (1) encrypting mobile computers and storage devices; (2)
           implementing remote two-factor authentication for access to internal government
           networks; (3) installing time-out features when logged into internal government
           networks; and (4) maintaining logs of sensitive information stored on mobile
           computers. The memorandum also directed the OIGs to review agency progress
           in implementing safeguards.

           As required, we evaluated SBA’s progress in implementing actions directed by
           OMB to protect sensitive agency information. We reviewed the Agency’s policies
           and procedures on information security and privacy, interviewed responsible
           systems security personnel in the Office of Chief Information Officer, and

           1
               Sensitive information is any information, the loss, misuse, or unauthorized access to or modification of, which could
               adversely affect the national interest or the conduct of Federal programs, or the privacy to which individuals are
               entitled under section 552a of title 5, United States Code (the Privacy Act), but which has not been specifically
               authorized under criteria established by an Executive Order or an Act of Congress to be kept secret in the interest of
               national defense or foreign policy.
                                                                                    2


conducted a limited test of SBA’s Virtual Private Network to determine the
adequacy of user reauthenticaton requirements. Our evaluation was performed at
SBA’s headquarters during August and September 2006, and our report was issued
on September 22, 2006.

Since that time we have performed additional work to assess the current status of
SBA efforts. This report presents additional details supporting our earlier
findings, provides the status of SBA’s data protection activities as of December 1,
2006, and makes five recommendations to further strengthen safeguards to protect
sensitive agency information.

RESULTS IN BRIEF

Information Redacted [Exemption 2]

SBA reviewed a draft of this report and concurred with the findings and
recommendations. SBA’s full response is included in Appendix I of this report.

FINDINGS

SBA Has Not Encrypted Sensitive Data on Mobile Computers and
Devices
OMB Memorandum 06-16 requires encryption for all data on mobile
computers/devices, which carry Agency data unless the data is determined to be
non-sensitive. However, as of August 7, 2006, SBA did not have a full inventory
of information systems that contained personally identifiable information. At the
time of our review, SBA had adequately assessed 20 out of a potential 101
systems for sensitive information.

Information Redacted [Exemption 2]

SBA Had Not Implemented a Remote Two-Factor Authentication for
Accessing the Agency Network
OMB Memorandum 06-16 requires that remote access to a network only be
allowed when a device separate from the computer gaining access is used.

Information Redacted [Exemption 2]
                                                                                      3


SBA Does Not Have a “Time-Out” Function For Email Remote Access
OMB requires that a “time-out” function be employed for remote access and
mobile devices that relies on user reauthentication after 30 minutes of inactivity.

Information Redacted [Exemption 2]

Logs of Computer-Readable Data Extracts Are Not Maintained
As of August 7, 2006, SBA did not have logs of computer-readable data extracts
from systems containing sensitive information. OMB Memorandum 06-16
requires Agencies to log all computer-readable data extracts from databases
holding sensitive information and to verify that each extract including sensitive
data has been erased within 90 days, unless its use is still required. Our evaluation
disclosed that SBA did not have procedures to create such logs or procedures to
ensure the erasure of old unneeded data extracts.

As of December 1, 2006, SBA determined that some of its offices had created
computer-readable data extracts of sensitive information used by employees and
contractors. Additionally, SBA is planning to write the necessary procedures to
require that a record be maintained of data extracts from sensitive Agency
databases and that those extracts are erased when they are no longer needed. Until
SBA completes these activities, it will not have a record of the sensitive data
stored in each of its systems needed to properly respond to incidents involving the
loss or compromise of sensitive data.

RECOMMENDATIONS
We recommend that the Chief Information Officer:

1. Complete an inventory of information systems containing sensitive Agency
   information.

2. Information Redacted. [Exemption 2]

3. Information Redacted. [Exemption 2]

4. Information Redacted. [Exemption 2]

5. Log all computer-readable data extracts from databases holding sensitive
   information and verify that each extract including sensitive data has been
   erased within 90 days unless further needed.
                                                                              4


AGENCY COMMENTS
The Agency provided written comments concurring with all findings and
recommendations in the draft report. SBA’s comments are summarized in the
Results in Brief section, and the full text of the comments can be found in
Appendix I to this report.
                                                                                  5




APPENDIX I. SCOPE AND METHODOLOGY

As required by OMB, we evaluated SBA’s progress in implementing of
Memorandum 06-16 as of August 7, 2006. We used a “data collection
instrument” developed by the President’s Council on Integrity and Efficiency to
answer specific questions regarding the implementation of Memorandum 06-16.

We also interviewed SBA's information systems security officer and other
personnel responsible for managing SBA’s implementation of Memorandum 06-
16 requirements. We examined SBA’s policy and procedures relative to
information security and privacy. We also conducted a functional test on SBA’s
Virtual Private Network (VPN) to determine whether it required user re-
authentication after 30 minutes of inactivity.

Our initial evaluation was performed at SBA’s headquarters office in Washington,
D.C. during August and September 2006, and we submitted the completed data
collection instrument to the Office of Inspector General, Department of Education
on September 22, 2006. We obtained additional status updates regarding SBA’s
efforts in this area through December 1, 2006.
APPENDIX II. MANAGEMENT COMMENTS

                     U.S. SMALL BUSINESS ADMINISTRATION
                           WASHINGTON, DC 20416




Date:   January 25, 2007

To:     Debra S. Ritt
        Assistant Inspector General for Auditing

        /S/ Original Signed
From:   Christine H. Liu
        Chief Information Officer
        Chief Privacy Officer

Subject: OCIO’s Response to Draft Advisory Memorandum Report on SBA’s
         Protection of Sensitive Agency Information


        Please find attached OCIO’s response to the recommendations addressed in the

        above report. If you require additional information, please contact me at (202)

        205 [Exemption 2]



        Attachment



        cc: Jovita Carranza
            Deputy Administrator
                                                                          2


  Response to Office of Inspector General’s Audit Report on the
   Review of the Small Business Administration’s Protection of
        Sensitive Agency Information (Project No. 6028):
OIG’s Recommendations

1. Complete an inventory of information systems containing sensitive
   Agency information. (Agree)
   OCIO’s Response: OCIO completed an inventory of the Agency’s
   major and minor information systems containing sensitive
   information. Privacy Impact Assessments (PIAs) for the Agency’s
   major information systems will be completed 1/31/07 and PIAs for the
   minor systems are scheduled for completion 2/28/07.

2. Information Redacted. [Exemption 2]

3. Information Redacted. [Exemption 2]

4. Information Redacted. [Exemption 2]

5. Log all computer-readable data extracts from databases holding
   sensitive information and verify that each extract including
   sensitive data has been erased within 90 days unless further
   needed. (Agree)
   OCIO’s Response: SOP 90-47 “Automated Information Security
   Program” is currently under revision to address this recommendation.
APPENDIX III. REPORT DISTRIBUTION


Recipient                                                                                         No. of Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown.............................................................................. 1

General Counsel ............................................................................................ 3

Office of Management and Budget ............................................................... 1

U.S. Government Accountability Office....................................................... 1
